                                                             OFFICE OF WORKERS'
                                                             COMPENSATION PROGRAMS


               Office of Inspector General—Office of Audit




                                                             OWCP NEEDS TO IMPROVE ITS MONITORING
                                                             AND MANAGING OF DEFENSE BASE ACT
                                                             CLAIMS




                                                                               Date Issued:     March 23, 2011
02-A12-345-67-890                                                           Report Number:    03-11-001-04-430
U.S. Department of Labor                                          March 2011
Office of Inspector General
Office of Audit
                                                                  OWCP NEEDS TO IMPROVE ITS MONITORING
                                                                  AND MANAGING OF DEFENSE BASE ACT
                                                                  CLAIMS
BRIEFLY…
Highlights of Report Number 03-11-001-04-430, to the
Acting Director of the Office of Workers’ Compensation            WHAT OIG FOUND
Programs.
                                                                  Although OWCP has been proactive in addressing DBA
                                                                  issues at the program level as well as active in resolving
WHY READ THE REPORT                                               disputes, we found improvements need to be made in
                                                                  case-file management. Our testing results for the sampled
                                                                  DBA cases disclosed (1) employers did not always report
The Office of Inspector General (OIG) initiated an audit of the   claimant injuries in a timely manner; (2) insurers did not
Defense Base Act of 1941, (DBA), Title 42, United States          always provide timely initial compensation payments and
Code, Section 1651 et seq., which requires all federal            OWCP did not ensure claimants received the statutory
government contractors (employers) and subcontractors to          assessment for late payments; (3) insurers did not always
provide workers’ compensation insurance for their employees       report the notice of final payment or suspension of payment in
(U.S. citizens and foreign nationals) who work outside of the     a timely manner; (4) OWCP did not always notify claimants
United States. DBA insurance is provided by private insurers      within the required timeframe when their claims were
or through self insurance, and is intended to be a counterpart    controverted (objected by the employer); (5) employers or
to domestic workers’ compensation coverage. As such, it is        insurers did not always respond in a timely manner to OWCP
the sole recourse for U.S. and foreign workers who suffer         requests for information; and (6) OWCP assessed penalties in
on-the-job injuries or death while engaged in work in foreign     less than one percent of the instances in our sampled cases
locations under a federal government contract. DBA is             in which employers and insurers did not meet DBA reporting
administered by the Department’s Office of Workers'               requirements.
Compensation Programs (OWCP), Division of Longshore and
Harbor Workers' Compensation (DLHWC), which is                    These conditions can be attributed to the challenges OWCP
responsible for ensuring that workers' compensation benefits      faced in administering DBA, a program that was enacted
are provided for covered employees promptly and correctly.        during World War II but has not been modified or adequately
Benefit payments reported by insurers in Calendar Year 2009       staffed to take into consideration the increased use of
totaled $242 million.                                             contractors and foreign nationals in the recent wars. However,
                                                                  we concluded that OWCP can improve its monitoring of DBA
WHY OIG CONDUCTED THE AUDIT                                       case management so that problems are identified and
                                                                  appropriate corrective action promptly taken. As a result,
The audit objective was to answer the following question:         OWCP could not ensure workers injured while employed in
                                                                  dangerous war zones and supporting the U.S. military
    To what extent does OWCP ensure that employers and            overseas efforts, received proper and timely workers’
    insurers are adhering to DBA claims-processing                compensation benefits under DBA.
    requirements?
                                                                  WHAT OIG RECOMMENDED
The audit covered OWCP’s oversight of the DBA claims
process as of May 2010, excluding OWCP’s involvement in           OIG recommended OWCP seek changes to the DBA
resolving disputes and contested cases. We reviewed a             legislation to reflect the current environment and implement
random statistical sample of 172 of 11,247 open cases where       changes to its case management information system to assist
the claimant’s date of injury occurred between January 1,         management and claims examiners in identifying the
2004, and December 31, 2009.                                      problems identified in this audit.

READ THE FULL REPORT                                              The OWCP Acting Director generally agreed with the
                                                                  recommendations to enhance the DBA data system and
To view the report, including the scope, methodology,             revise the DBA statute. While OWCP agreed that it did not
                                                                  always comply with existing regulations to enforce compliance
and full agency response, go to:
                                                                  with DBA requirements by using fines and penalties, OWCP
http://www.oig.dol.gov/public/reports/oa/2011/03-11-              believed that doing so would likely be counterproductive to the
001-04-430.pdf.                                                   needs of the injured workers, the contractors, the insurance
                                                                  companies, and OWCP.
                                                              U.S. Department of Labor – Office of Inspector General



Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1



Results in Brief .............................................................................................................. 2



Objective — To what extent does OWCP ensure that employers and insurers are 

            adhering to DBA claims-processing requirements? ............................ 4


          OWCP needs to improve internal controls in monitoring and managing 

            DBA cases because untimely payment of compensation may pose 

            economic hardship to injured workers............................................................. 4



          Finding — OWCP ensured to a limited extent that workers' DBA benefits 

                    were protected. ................................................................................... 5



Recommendations ...................................................................................................... 17



Exhibits
          Exhibit 1 Statistical Results and Projections for Reports, Payments, and 

             Penalties ....................................................................................................... 21


          Exhibit 2 Statistical Results and Projections for Days Late................................. 23



Appendices
          Appendix A Background ..................................................................................... 27


          Appendix B Objective, Scope, Methodology, and Criteria .................................. 29


          Appendix C Acronyms and Abbreviations .......................................................... 33


          Appendix D OWCP Response to Draft Report ................................................... 35


          Appendix E Acknowledgements ......................................................................... 37






                                                                                                Defense Base Act Claims
                                                                                             Report No. 03-11-001-04-430
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                         Defense Base Act Claims
                                      Report No. 03-11-001-04-430
                                          U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                Office of Inspector General
                                        Washington, D.C. 20210


March 23, 2011

                        Assistant Inspector General’s Report



Gary Steinberg
Acting Director
Office of Workers’ Compensation Programs
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

The Defense Base Act of 1941, (DBA), Title 42, United States Code (U.S.C.), Section
1651 et seq., requires all federal government contractors (employers) and
subcontractors to provide workers’ compensation insurance for their employees (U.S.
citizens and foreign nationals) who work outside of the United States. Under the DBA
provisions, overseas federal military and public works contractors are subject to the
same workers’ compensation rules, insurance requirements, and benefit schedules as
maritime firms covered by the Longshore and Harbor Workers’ Compensation Act
(Longshore Act). It is intended to be a counterpart to domestic workers’ compensation
coverage, and as such, is the sole recourse for U.S. and foreign workers who suffer
on-the-job injuries or death while engaged in work in foreign locations under
government prime contracts and subcontracts. DBA insurance is provided by private
insurers or through self-insurance. The DBA is administered by the U.S. Department of
Labor (DOL), Office of Workers' Compensation Programs (OWCP), Division of
Longshore and Harbor Workers' Compensation (DLHWC). DLHWC is responsible for
ensuring that workers' compensation benefits are provided for covered employees
promptly and correctly.

DOL reported a rapid increase in the number of DBA cases and benefits paid in
connection with the wars in Afghanistan and Iraq. New DBA cases opened annually
increased from 347 in Fiscal Year (FY) 2002 to 12,255 in FY 2009. Benefit payments
reported by insurers increased from $7.6 million in Calendar Year (CY) 2002 to $242
million during CY 2009, which is the most recent data available. It is important that
these injured workers, many of them U.S. citizens, employed in dangerous war zones,
receive proper and timely workers’ compensation benefits.

The audit objective was to answer the following question:

      To what extent does OWCP ensure that employers and insurers are adhering to
      DBA claims-processing requirements?



                                                                         Defense Base Act Claims
                                            1                         Report No. 03-11-001-04-430
                                          U.S. Department of Labor – Office of Inspector General


The audit covered OWCP’s oversight of the DBA claims process as of May 2010, but
did not include OWCP’s involvement in resolving disputes and contested cases. We
reviewed a random statistical sample of 172 of 11,247 open cases where the claimant’s
date of injury occurred between January 1, 2004, and December 31, 2009. We
analyzed whether OWCP monitored the claims to ensure employers and insurers
complied with reporting and benefit payment requirements and assessed penalties for
identified instances of non-compliance.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our finding and conclusions based on our audit
objective. Our objective, scope, methodology, and criteria are detailed in Appendix B.


RESULTS IN BRIEF

We found that OWCP took action at the program level to address challenges associated
with DBA but can make improvements in case-file management to ensure workers’
benefits under the DBA were protected. In administering DBA, OWCP faced challenges
with managing the rapid increase in DBA cases due to the wars in Iraq and Afghanistan
but without an increase in staff resources. OWCP provided educational seminars on
DBA requirements to insurers, contractors, contracting agencies, and attorneys; and
posted forms and instructions, including ones in Arabic, on its website to make
information available about DBA and its benefits to workers around the world. OWCP
also worked with the insurance industry leadership to address major claim-processing
issues, and it developed new Government Performance and Results Act (GPRA) goals
in FY 2010 to measure the timeliness of reporting injuries and making the first benefit
payments.

Although OWCP has been pro-active in addressing DBA issues at the program level as
well as active in resolving disputes, we found improvements need to be made in
case-file management. We found that 86 percent of the cases we reviewed did not meet
one or more of the criteria used for ensuring that workers received DBA protection
related to injury reporting, compensation payments, notification of controverted claims,
and responses to OWCP information requests. Our testing results for the sampled DBA
cases disclosed the following:

   •		 Employers did not always report claimant injuries in a timely manner. Based on
       our statistical sample, we are 95 percent confident that at least 61 percent, and
       no more than 74 percent, of the 11,247 cases in our universe showed the
       employer did not report claimant injuries within the required 10 days of the date
       of employer knowledge of the incident. We determined that 38 percent of the
       employers in our sample were more than 60 days late in reporting claimant
       injuries to OWCP.


                                                                      Defense Base Act Claims
                                            2                      Report No. 03-11-001-04-430
                                          U.S. Department of Labor – Office of Inspector General




   •		 Insurers did not always provide timely initial compensation payments, and OWCP
       did not ensure claimants received the statutory 10 percent assessment for late
       payments. Based on our statistical sample, we are 95 percent confident that at
       least 15 percent, and no more than 27 percent, of the cases in our universe of
       11,247 cases showed that the first compensation payment was not paid within
       the required time frame. We determined that 44 percent of these payments in our
       sample were more than 60 days late.

   •		 Insurers did not always report the notice of final payment or suspension of
       payment in a timely manner; OWCP did not always notify claimants within the
       required timeframe when their claims were controverted (objected by the
       employer); and employers or insurers did not always respond in a timely manner
       to OWCP requests for information. Finally, DLHWC assessed penalties in less
       than one percent of the instances in our sampled cases in which employers and
       insurers were late in meeting reporting requirements and DLHWC information
       requests.

These conditions can be attributed to the challenges OWCP faced in administering
DBA, a program that was enacted during World War II but has not been modified or
adequately staffed to take into consideration the current use of contractors and foreign
nationals in the wars in Iraq and Afghanistan, and the rapid increase in DBA cases that
have resulted from these wars. OWCP can improve its monitoring of DBA case
management so that problems are identified and appropriate corrective action promptly
taken. In the area of penalty assessments, we found a need for centralized guidance
regarding when penalties should be assessed to assist with program compliance. As a
result, OWCP cannot ensure that workers — many of them U.S. citizens — injured
while employed in dangerous war zones and supporting the U.S. military overseas
efforts, receive proper and timely workers’ compensation benefits under DBA.

We recommended the Acting Director of OWCP seek changes to the DBA legislation to
reflect the current environment and develop reports from its case management
information system to assist management and claims examiners in identifying the
problems identified in this audit. We also recommended that OWCP require insurers to
report initial compensation payment within an established timeframe so that claims
examiners can ensure it was paid timely and if not, ensure that the claimant received
the proper late payment assessment. Finally, we recommended that OWCP establish a
strategy that will provide the uniform use of penalty assessment at the DLHWC District
Office level and improve employers’ and insurers’ compliance with DBA claims-
processing requirements.


OWCP RESPONSE

In response to our draft report, the Acting Director of OWCP stated that the claims
processing requirements cited in the report were enacted during World War II. He


                                                                      Defense Base Act Claims
                                            3                      Report No. 03-11-001-04-430
                                            U.S. Department of Labor – Office of Inspector General


indicated that processing DBA claims in the current situation is completely different;
noting that claims from American workers are complicated by various circumstances
that did not exist previously, and information for foreign contract workers is simply not
available to allow insurers to file reports or pay benefits within World War II era statutory
requirements.

The OWCP Acting Director agreed that OWCP did not always comply with existing
regulations to enforce compliance with DBA requirements. However, OWCP believed
that doing so would likely be counterproductive to the needs of injured workers, the
contractors, the insurance companies, and OWCP.

The OWCP Acting Director’s response is included in its entirety as Appendix D.


OIG CONCLUSION

Our report acknowledges that OWCP is operating DBA under an outdated statute that
does not recognize the many changes that have occurred since its passage.
Accordingly, we have included a recommendation that OWCP seek legislative changes
to the DBA.

We also do not dispute OWCP’s claim that enforcing compliance with existing DBA
requirements may be counterproductive. However, regardless of the standard for
timeliness that is used, OWCP needs to have controls in place to flag reports and
payments that are not timely, and agency management needs to monitor the status of
DBA claims and follow up on those judged to be untimely.


RESULTS AND FINDINGS

Objective — To what extent does OWCP ensure that employers and insurers are
            adhering to DBA claims-processing requirements?

       OWCP needs to improve internal controls in monitoring and managing DBA
       cases because untimely payment of compensation may pose economic hardship
       to injured workers.

We found that OWCP has taken action at the program level to address challenges
associated with DBA but can make improvements in case-file management to ensure
workers’ benefits under DBA are protected. In administering DBA, OWCP faced
challenges with managing the rapid increase in DBA cases due to the wars in Iraq and
Afghanistan, but without an increase in staff resources. OWCP dealt with employers,
insurers, and workers in war zones; communicated with war zone claimants in ways that
would not cause them to be targeted and harmed by insurgents; and handled complex
claims issues such as Post Traumatic Stress Disorder (PTSD) cases, which are
complicated by the need for specialized evaluations, reports, and treatments all based


                                                                        Defense Base Act Claims
                                              4                      Report No. 03-11-001-04-430
                                           U.S. Department of Labor – Office of Inspector General


on symptoms that can arise years after a traumatic experience. To address these and
other issues, OWCP provided educational seminars on DBA requirements to insurers,
contractors, contracting agencies, and attorneys on DBA requirements; posted forms
and instructions, including ones in Arabic, on its website to educate workers around the
world about DBA and its benefits; worked with the insurance industry leadership to
address major claim process issues such as PTSD claims; developed new GPRA goals
in FY 2010 to measure the timeliness of injury reports and first payment of benefits; and
created a website to post “industry report cards” showing the results of these
measurements. We also observed that DLHWC staff at its District Offices spent their
efforts to address claimant complaints and informally and formally resolve disputes
between claimants, employers, and insurers.

Although OWCP has been proactive in addressing DBA issues at the program level and
active in resolving disputes, we found improvements need to be made in case-file
management to ensure workers’ benefits under DBA are protected.

Finding — OWCP ensured to a limited extent that workers' DBA benefits were
          protected.

OWCP ensured to a limited extent that workers’ benefits under DBA were protected. In
our sample of 172 cases, we found that 86 percent (148 cases), did not meet one or
more of the critical criteria used for ensuring that workers receive this protection. Our
testing results for the sampled DBA cases disclosed the following:

   •		 Employers did not always report claimant injuries in a timely manner.

   •		 Insurers did not always provide timely initial compensation payments, and OWCP
       did not ensure claimants received the statutory 10 percent assessment for late
       payments.

   •		 OWCP did not always have documentation of initial compensation payments.

   •		 Insurers did not always report the notice of final payment or suspension of 

       payment in a timely manner.



   •		 OWCP did not always notify claimants within 10 days that their cases were
       controverted (objected by their employer or the insurer).

   •		 Employers or insurers did not always respond in a timely manner to OWCP for
       requests for information.

   •		 DLHWC assessed penalties in less than one percent of the instances in our
       sample, in which employers and insurers were late in meeting reporting
       requirements and DLHWC information requests.




                                                                       Defense Base Act Claims
                                            5                       Report No. 03-11-001-04-430
                                           U.S. Department of Labor – Office of Inspector General


Although these conditions can be attributed in part to the challenges OWCP faced in
administering DBA — a program that was enacted during World War II but has not been
modified or adequately staffed to take into consideration the current use of contractors
and foreign nationals in the wars in Iraq and Afghanistan, and the rapid increase in DBA
cases that have resulted from these wars — they can also be attributed to weaknesses
in OWCP’s ongoing monitoring of DBA case management. OWCP’s monitoring process
did not systemically identify problems at the case-file level so that appropriate action
could be promptly taken. While OWCP did track case workload, case inventories, status
of disputes and informal conferences, OWCP relied on claimant complaints to initiate
additional oversight action in managing and monitoring DBA claims. In the area of
penalty assessments, we found a need for centralized guidance regarding when
penalties should be assessed to assist with program compliance. As a result, OWCP
cannot ensure that workers — many of them U.S. citizens — injured while employed in
dangerous war zones and supporting the U.S. military overseas efforts, receive proper
and timely workers’ compensation benefits under DBA.

The implementing regulations for DBA are in Title 20, Code of Federal Regulations (20
CFR), Employee Benefits, Chapter VI, Subchapter A - Longshoremen’s and Harbor
Workers’ Compensation Act and Related Statutes. Subpart B - Claims Procedures, Part
702 contains various requirements related to the claims process.

The DLHWC Procedures Manual contains the procedures DLHWC District Office claims
examiners are to follow in case initiation, evaluation, adjudication, and medical care. It
requires claims examiners to review recently opened cases within 30 days to ensure
compensation payments are provided on a timely basis, appropriate medical care is
being provided, and the injured worker is promptly informed when entitlement to
compensation is controverted by the employer or insurer.

To determine to what extent workers’ benefits were protected under DBA, we
statistically sampled 172 open DBA cases from a population of 11,247. The following
provides the results for the sampled DBA cases (see Exhibits 1 and 2 for statistical
results and the projections discussed below).

Employers did not always report claimant injuries in a timely manner.

We found that employers did not report claimant injuries in a timely manner for 117 of
the 172 cases (68 percent) sampled. Based on our statistical sample results, we are 95
percent confident that at least 6,910 (61 percent) cases and no more than 8,408 cases
(74 percent) in our universe of 11,247 cases showed the employer did not report
claimant injuries within the required 10-day period. Of the 117 cases in our sample in
which the employer did not report the claimant injury timely, 43 (38 percent) were more
than 60 days late. Based on our statistical sample results, we are 95 percent confident
that for at least 2,343 (21 percent) cases and no more than 3,330 (30 percent) cases in
our universe of 11,247, employers were more than 60 days late in reporting claimant
injury.



                                                                       Defense Base Act Claims
                                            6                       Report No. 03-11-001-04-430
                                           U.S. Department of Labor – Office of Inspector General


20 CFR, Part 702.201(a), requires employers to furnish the DLHWC District Director a
report of an employee's injury or death within 10 days, or 10 days from the date an
employer has knowledge of an employee's injury or death. The form normally used to
report injuries or deaths is the LS-202, Employer’s First Report of Injury or Occupational
Illness.

Without timely notification of injury, OWCP is not aware of potential delays so it can take
action necessary to ensure the injured workers receive benefits to which they are
entitled. Additionally, untimely notification of injury to OWCP means that injured workers
will not receive the basic information about their rights to benefits and how to file claims
within the required time frames.

OWCP officials told us they recognized that delays in reporting injuries — especially for
foreign workers arising from remote war zones — are endemic, and DBA employers
have great difficulty in meeting the 10-day requirement to submit injury reports to
OWCP. They stated this was especially true among subcontractors and foreign
contractors, many of whom have no idea of the reporting requirements under DBA or
even the concept of workers’ compensation. OWCP officials explained they have
implemented various strategies to improve employer and insurer compliance with timely
injury reporting. OWCP management stated that they meet regularly with managers and
executives of the major DBA insurers to show them their performance results, confront
them in cases of extreme delays, and discuss ways to improve compliance. OWCP
officials told us they are publishing insurer “industry report cards” online as an incentive
for them to improve. Taking this into consideration, OWCP believed that a better
measurement for timely reporting would be 30 days rather than the statutory 10 days.
Therefore, for FY 2010, OWCP implemented a GPRA performance measure to focus on
improving the percentage of injury reports submitted within 30 days. OWCP stated it
made progress against this new GPRA goal, and by the end of June 2010, 73 percent
of the first reports of injuries were received within 30 days.

Our analysis used reporting standards that exist within current federal regulations — 10
days. We do not disagree with OWCP that a better measurement for timely reporting
would be 30 days considering the challenges that occurred in the recent wars with the
increased use of foreign nationals and subcontractors. However, even with using a
30-day reporting requirement, our audit results still showed a problem with timely
reporting in that for 47 percent of the sampled cases, the injury was not reported within
30 days. Our analysis did show a marked improvement for cases opened in FY 2009,
which could be attributed to OWCP’s strategies to address the problem with untimely
reporting of injuries. The following table compares our sample results using the statutory
10-day reporting requirement to the 30-day reporting requirement preferred by OWCP,
and the results for the years the cases were opened.




                                                                       Defense Base Act Claims
                                             7                      Report No. 03-11-001-04-430
                                                        U.S. Department of Labor – Office of Inspector General



          Table 1 – Comparison of Statutory 10-Day Injury Reporting 

          Requirement to OWCP’s 30-Day GPRA Measure for Injury 

          Reporting
                              Number of                Number of
                               Cases in                 Cases in
                            Which Report              Which Report
                     Total     of Injury                 of Injury
           Year      Cases    Exceeded      Percent     Exceeded      Percent
          Opened Sampled       10 Days      of Total     30 Days      of Total
           2004        9           8         89%             5         56%
           2005        10          5         50%             4         40%
           2006        17         14         82%            13         76%
           2007        20         17         85%            14         70%
           2008        32         23         72%            18         56%
           2009        84         50         60%            26         31%
           Total      172        114         68%            80         47%

Insurers did not always provide timely initial compensation payments, and OWCP
did not ensure claimants received the statutory 10 percent assessment.

Of the 172 cases sampled, with 65 involving compensation payments, we found that 36
(55 percent) contained an LS-206 that showed the first compensation payment was
more than 28 days from the date of knowledge of the injury. We did not consider
payments late if the case was controverted 1 in a timely manner. If the employer or
insurer controverts the claim, it stops the time requirement until the controversion is
resolved. We also did not consider a payment late if there was evidence that the insurer
or employer provided the District Director an explanation of conditions causing the
installment to not be paid timely. Based on our statistical sample, we are 95 percent
confident that for at least 1,737 cases (15 percent) and no more than 3,001 cases (27
percent) in the universe, the insurers did not provide the initial compensation payment
within 28 days from the date of knowledge. More than 44 percent of the 36 untimely
payments in our sample were more than 60 days late. Based on our statistical sample
results, we are 95 percent confident that for at least 602 (5 percent) cases and no more
than 1,515 (13 percent) cases in our universe of 11,247, the untimely payments were
more than 60 days late.

20 CFR, Part 702.232, requires that first compensation payment is due by the 14th day
after the employer has been notified, or has actual knowledge of the injury or death.
Part 702.233 provides for a penalty if any installment of compensation payable is not
paid within 14 days after it becomes due in an amount equal to 10 percent of the unpaid
installment unless the employer files a Notice of Controversion or the employer can
demonstrate to the DD that it had no control over conditions causing the installment not


1
  Controverted means a formal denial of responsibility under DBA by an employer or insurer that has to be filed with
the District Office within 14 days after the party gains knowledge of the alleged injury.

                                                                                        Defense Base Act Claims
                                                          8                          Report No. 03-11-001-04-430
                                            U.S. Department of Labor – Office of Inspector General


be paid within the period prescribed. Although called a “penalty” in 20 CFR, Part
702.233, this is actually an assessment that the insurer has to pay the claimant.

The DLHWC Procedures Manual, Chapter 8-202, defined late payments as those after
28 calendar days from the date the employer first obtains knowledge of the injury. The
Procedures Manual explained that the regulations require that compensation be paid
initially on the 14th day after the employer is notified or aware of the injury, and that all
compensation then due shall be paid. Following the initial payment, compensation is to
be paid bi-weekly unless the District Director determines otherwise. The usual practice
is to pay compensation at 2-week intervals. Since the 10 percent assessment does not
apply to the first installment until 14 days after the "due" date, this in effect allows 28
calendar days (from the date the employer first obtains knowledge of the injury) in which
to pay the first installment. Compensation is paid when it reaches the claimant. If
payment is not made within 28 days, 10 percent additional compensation must be paid.
20 CFR, Part 702.234 requires the employer to immediately report to the District
Director the first compensation payment and the suspension of payments. The form
normally used to notify OWCP of the first compensation payment to the claimant is the
LS-206, Payment of Compensation Without Award.

Untimely payment of compensation obviously poses economic hardship to injured
workers who are unable to earn wages due to their work injuries.

OWCP acknowledged that insurers in many cases failed to pay compensation within the
statutorily-required timeframe. OWCP stated that delays in payment of benefits,
especially to foreign workers in remote third world countries or in war zones, are
generally unavoidable. The complexities of war-zone claim adjusting, including lack of
worker identity or documentation of employment and payroll, unobtainable medical
evidence, and lack of banking infrastructure, result in the insurers simply being unable
to establish eligibility for benefits within 28 days. OWCP stated that, since FY 2008, it
developed a new GPRA measure to improve the timeliness of first payment of benefits.
The performance measure was to improve the percentage of first benefit payments
made within 30 days of the day disability (or death benefits) begins. OWCP stated it
made progress against this new GPRA goal, and by the end of June 2010, the program
result was that 54 percent of the first payments were made within 30 days.

We recognize the challenges insurers have in providing timely compensation payments
to foreign workers; however, our audit found problems with timely payments made to
workers living in the U.S. Of 36 untimely compensation payments identified in our
sample, 19 (53 percent) were to workers living in the United States.

Our analysis did show a marked improvement for cases opened in FY 2009, which
could be attributed to OWCP’s strategies to address the timeliness of the initial
compensation payment. The following table shows that the percent of case files with
compensation payments in our sample that were not timely decreased from a high of 83
percent in 2007 to 35 percent by 2009.



                                                                        Defense Base Act Claims
                                              9                      Report No. 03-11-001-04-430
                                           U.S. Department of Labor – Office of Inspector General



        Table 2 – Percent of Sampled Case files With Untimely Initial
        Compensation Payments for the Period 2004 to 2009
                 Total                   Number of
                Number     Number of     Case files       Percent of Case files
                   of       Case files  With Untimely      With Untimely Initial
                 Cases        With           Initial    Compensation Payments
                   in    Compensation Compensation       to Total Case files With
        Year    Sample      Payments     Payments       Compensation Payments
         2004      9           5               2                   40%
         2005      10          5               3                   60%
         2006      17          9               7                   78%
         2007      20          12              10                  83%
         2008      32          11              8                   73%
         2009      84          17              6                   35%
        Total     172          59              36                  40%

OWCP disagreed that it failed to ensure that an additional 10 percent of compensation
was assessed in all but 1 of the 36 sampled cases. OWCP stated that the DBA does not
provide it the authority to assess an additional 10 percent compensation (erroneously
called a “penalty”) for late payment without a controversion. OWCP stated the District
Director may recommend payment of the additional compensation, but it does not have
statutory authority to require payment. Only an Administrative Law Judge may order
such payment. OWCP added that DBA permits the District Director to excuse the
payment of the additional compensation upon showing that “owing to conditions over
which the insurer has no control,” such installment could not be paid within the
prescribed period. OWCP explained that when delays in payment are clearly due to
war-zone conditions — inaccessibility to claimants, absence of medical and identity
documents, and other obstacles — the Longshore Act permits District Directors to
excuse the delay by not requesting that the carrier pay the additional 10 percent
compensation.

According to OWCP management, the New York District Director in fact made a blanket
waiver to reduce unproductive workload early in the Iraq conflict. The New York District
Director decided to consider all claims as controverted so the insurers would not have to
meet the statutory timeframe for paying first benefits, which the District Director felt was
impossible to meet because of circumstances beyond the insurers’ control. The New
York District Director took this action because the majority of DBA claims from foreign
workers (and many from U.S. citizens) were not immediately perfected in terms of
needed documentation, and insurers routinely contested DBA claims, which
overburdened the New York District Office with paperwork.

We agree that the 10 percent compensation payment is not a penalty assessed by
OWCP; however, OWCP does have the responsibility to make certain the insurers
comply with DBA requirements, unless excused by the District Director. As previously
stated, when assessing the timeliness of initial compensation payment, the audit did not


                                                                       Defense Base Act Claims
                                            10                      Report No. 03-11-001-04-430
                                                     U.S. Department of Labor – Office of Inspector General


categorize as late converted cases or cases in which evidence showed the District
Director excused the assessment payment owing to conditions over which the insurer
had no control. Regarding the actions taken by the New York District Director, OWCP
implied that the audit should not have taken exception to any of the cases from this
District Office. However, during audit field work, neither OWCP officials at the National
Office nor the New York District Office provided us with information on the District
Director’s actions. Therefore, the results of our analysis did not reflect an evaluation of
the appropriateness and affect of the District Director’s actions. At face value, we
question whether the New York District Director’s action was reasonable and fair from
the claimants’ perspective.

Case files did not always contain evidence of initial compensation payments.

OWCP did not have documentation of initial compensation payments for 6 (9 percent) of
the 65 compensation cases 2 in our sample. These cases did not contain an LS-206 or
any other documentation to support the first compensation payment. OWCP did not
establish a required timeframe for insurers to report to OWCP the initiation of
compensation payments. This conflicts with Title 33, U.S.C., Chapter 18, Section
914(c), which requires immediate notification to OWCP upon the first payment of
compensation using the form prescribed by OWCP, the LS-206.

OWCP management told us that not every payment requires an LS-206, and neither
DBA nor regulations impose a mandatory requirement or a time frame to file the “Notice
of Compensation Without Award” - Form LS-206. OWCP provided the following
situations in which the notice is not required:

    •		 Only the LS-208 is required if the compensation is paid for a short period and in
        one check;

    •		 Some insurers routinely use the LS-208 to report continuing payments in lieu of
        the LS-206 because the LS-208 allows multiple entries at different compensation
        rates; or,

    •		 The LS-208 is required in lieu of the LS-206 when a case is settled or first
        payment on a continuing award is made pursuant to a compensation order.

OWCP stated that it never adopted a time requirement for filing the LS-206. It relied
instead on voluntary compliance and insurer education.

We believe that reporting the initial payment is required by Title 33, U.S.C., Chapter 18,
Section 914(c). We acknowledge that it can be filed using either the LS-206 or other
documentation. Obtaining documentation of first payment would assist OWCP in
ensuring that insurers either pay claimants timely or pay the 10 percent compensation


2
 We determined these were compensation cases because the case files contained an LS-208, Notice of Final
Payment or Suspension of Payments.

                                                                                   Defense Base Act Claims
                                                      11                        Report No. 03-11-001-04-430
                                          U.S. Department of Labor – Office of Inspector General


assessment, unless the reason for the late payment is justified. We considered all forms
to be documentation of first payment in our audit.

Insurers did not always report the notice of final payment or suspension of
payment in a timely manner

Of the 172 cases sampled, 57 had a Notice of Final Payment or Suspension of
Payments (LS-208), we found 21 (37 percent) were not reported to OWCP within 16
days from date of last payment. Based on our statistical sample results, we are 95
percent confident that for at least 839 cases (7 percent) and no more than 1,919 cases
(17 percent) in our universe of 11,247, the notice of final payment was not provided to
OWCP within 16 days after the payment. Of the 21 notices in our sample that were not
timely, 48 percent were more than 60 days late. Based on our statistical sample results,
we are 95 percent confident that for at least 295 (3 percent) cases and no more than
1,013 (9 percent) cases in our universe of 11,247, the notification of last payment was
more than 60 days late.

20 CFR, Part 702.235, requires the employer, insurer, or self-insured employer to report
the final compensation payment within 16 days after it is made. The final payment is any
of the following: (1) The last payment of compensation made in accordance with a
compensation order awarding disability or death benefits; (2) The payment of an agreed
settlement; (3) The last payment made pursuant to an agreement reached by the
parties through informal proceedings; and (4) Any other payment of compensation
which anticipates no further payments under the Act. 20 CFR, Part 702.236, provides
that the DLHWC District Director shall asses a civil penalty in the amount of $110 to any
employer failing to provide the final payment notification.

Without receiving timely notification of final payment or suspension of payments, OWCP
cannot ensure that the reason for stopping or suspending the payment was proper. Our
determination of the number of instances in which insurers were late in meeting
reporting requirements excluded LS-208s that were not a notice for final payment, as
the LS-208 can be used for reasons other than reporting final payment.

OWCP did not always notify claimants in a timely manner that their claims were
controverted.

Of the 172 cases sampled, 75 contained a formal denial of responsibility under DBA by
an employer or insurer (controverted). For 58 of the 75 cases (77 percent), OWCP did
not notify claimants (with an LS-209) within 10 days that their cases were controverted.
Based on our statistical sample results, we are 95 percent confident that for at least
3,039 cases (27 percent) and no more than 4,578 cases (41 percent) OWCP did not
notify claimants in a timely manner that their cases were controverted. Notifying
claimants that their cases were controverted is important so claimants can take timely
action to address the dispute.




                                                                      Defense Base Act Claims
                                           12                      Report No. 03-11-001-04-430
                                                         U.S. Department of Labor – Office of Inspector General


The DLHWC Procedures Manual, Chapter 2-201.3d, requires that within 10 days after
the receipt of the employer’s Notice of Controversion, the District Office claims examiner
to notify the claimant of the Controversion using the LS-209, Request for Employee’s
Reply to Employer’s Objections.

OWCP management stated there is no statutory requirement for OWCP to serve the
Notice of Controversion on the claimant but rather it is the DLHWC Procedures Manual
that imposes such a requirement on the District Director. OWCP officials told us the lack
of timely notification could be attributed to their efforts to protect the identity of foreign
nationals who may be harmed if they were found working for U.S. contractors in war
zones. Sending Controversion notifications to these claimants could compromise their
safety. Additionally, OWCP stated that when new DBA cases began increasing, almost
all the insurers routinely filed a Notice of Controversion in order to provide more time for
them to investigate the claim. This increased the workload at the New York District
Office, which handles all foreign work claims. Therefore, the NY District Director
instructed the insurers to stop filing the Controversion forms (LS-207). We noted that
DLHWC did not provide us any documentation to support the New York District
Director’s instructions to the insurers to stop filing the LS-207s. OWCP explained that
for DBA cases served by all other District Offices, the LS-209 was sent to claimants in
the regular course of claims processing. OWCP stated that one point to take into
consideration is that it may take 2 to 4 weeks for cases to be transferred from the New
York District Office 3 to other District Offices because of the volume of cases involved.
Sending the LS-209 to claimants within 10 days of receiving the case file from the New
York District Office would be considered timely by DLHWC Procedures Manual
standards. Likewise, an LS-207 submitted to the wrong District Office by the insurer is
sent to the office handling the file, causing delays.

We understand OWCP’s efforts to protect the identity of foreign nationals; however, our
analysis showed a problem with timely notifying workers in the U.S. that their case was
controverted. More than 46 percent of the cases (27 of 58) in our sample represented
U.S workers who had an untimely notice that their case was controverted. Additionally,
most of these cases were assigned to a District Office other than New York.

Employers or insurers did not respond in a timely manner to OWCP requests for
information.

Of the 172 cases sampled, 91 contained requests for information from OWCP to the
employer or insurer. We found that in 45 of 91 (49 percent) of these cases, the
employers or insurers did not respond or did not respond in a timely manner to OWCP.
Based on our statistical sample results, we are 95 percent confident that for at least
2,204 cases (20 percent) and no more than 3,664 cases (33 percent) in our universe of
11,247 cases, the employers or insurers did not respond or did not respond timely to
OWCP’s request for information. Untimely responses to requests for information

3
  All DBA cases are initiated in the New York District Office and then sent to the DLHWC District Office that has
jurisdiction over the area in which the claimant resides. All claimants with foreign residence remain at the New York
District Office.

                                                                                         Defense Base Act Claims
                                                          13                          Report No. 03-11-001-04-430
                                          U.S. Department of Labor – Office of Inspector General


concerning medical or compensation records hamper OWCP’s ability to ensure injured
employees are treated fairly.

When additional information is needed for a case, the claims examiner sends an
LS-216, Requests for Additional Reports, to employers and/or insurers; and responses
are due within 30 days.

OWCP stated that there is not a standard time requirement for responses to the LS-216.
The standard procedure is for District Office staff to enter a follow up (OWCP refers to
this as a “call-up”) of anywhere from 30 to 90 days for a response, depending on the
information, documents, or actions requested. OWCP explained that when the call-up is
due and the employer or insurer has not responded, the District Office staff will send a
second request and a renewed call-up. OWCP believes this is an effective tool, and for
the most part, non-DBA employers and insurers respond within a reasonable time to the
Form LS-216. However, OWCP said it recognizes that DBA insurers are less
responsive and often the District Office staff has to issue second and third requests.
OWCP stated this is one of the biggest complaints the District Offices have against the
insurers. OWCP believes there are several reasons for this problem, such as insurance
claims adjusters are overwhelmed with DBA caseload and are slow to respond; some
DBA adjusters are new to the DBA claims arena and are not aware of the need to
respond; and others have difficulty securing the documents or information requested,
and therefore simply do not respond.

To address this problem, OWCP stated it consulted with the Solicitor of Labor (SOL)
and received its endorsement that OWCP may assess a civil penalty under Section
30(e) of the Longshore Act for “knowing and willful” failure to respond to requests for
additional information as requested, via the LS-216 or by other correspondence. This
practice was implemented in FY 2010. Previously, the Section 30(e) penalty had been
construed to only apply to the delay or failure to file the Employer’s First Report of
Injury. OWCP also stated that at industry conferences and seminars, employer and
insurer training and workshops, and National Office meetings with the insurers DLHWC
management in the National Office and District Offices have emphasized the need to
respond to LS-216 requests.

Our audit results show the call-up procedure has not been effective. Furthermore, the
audit results indicate that OWCP’s outreach efforts with employers and insurers were
not effective. Our trend analysis of the cases sampled that contained an LS-216 showed
there was still a problem in FY 2009, in that 60 percent of the requests were not
responded timely by employers or insurers. We were not able to evaluate the
effectiveness of OWCP’s practice to assess penalties for “knowing and willful” failure to
respond to requests since the practice was implemented in 2010 and the scope of our
audit was for DBA cases through 2009.




                                                                      Defense Base Act Claims
                                           14                      Report No. 03-11-001-04-430
                                            U.S. Department of Labor – Office of Inspector General


In most cases OWCP did not assess penalties for late reporting.

DLHWC District Offices assessed penalties in less than 1 percent (2 of 211) of the
instances in our sampled cases in which employers and insurers were late in meeting
reporting requirements and DLHWC information requests.

Federal laws and regulations provide authority to OWCP to assess penalties to
employers and insurers for late reports, late payments, and lack of notification for
suspension of payments and final payments. The following are the penalty provisions
for DBA claims:

      Report of Injury or Death – 20 CFR, Part 702.204, provides that any employer,
      insurer, or self-insured employer who knowingly and willfully fails or refuses to
      send any report required by 20 CFR, Part 702.201, or who knowingly or willfully
      makes a false statement or misrepresentation in any report, shall be subject to a
      civil penalty not to exceed $10,000 for each such failure, refusal, false statement,
      or misrepresentation. This was raised to $11,000 for any violations occurring on
      or after November 17, 1997. The District Director has the authority and
      responsibility for assessing a civil penalty under this section.

      Penalty for Late Payment – 20 CFR, Part 702.233, provides for a penalty if any
      installment of compensation payable is not paid within 14 days after it becomes
      due an amount equal to 10 percent of the unpaid installment shall be added to
      the payment unless the employer files a Notice of Controversion or the penalty is
      excused by the District Director after a showing by the employer that, owing to
      conditions over which it had no control, the installment could not be paid within
      the period prescribed.

      The DLHWC Procedures Manual, Chapter 8-202, provides the guidelines,
      procedures, and instructions for computing and applying the 10 percent
      additional compensation due for installment payments. The DLHWC Procedures
      Manual defined late payments as those after 28 calendar days from the date the
      employer first obtains knowledge of the injury. The Procedures Manual explained
      that the regulations require that compensation be paid initially on the 14th after
      the employer is notified or aware of the injury, and that all compensation then
      due shall be paid. Following the initial payment, compensation is to be paid
      bi-weekly unless the District Director determines otherwise. The usual practice is
      to pay compensation at 2-week intervals. Since the 10 percent penalty does not
      apply to the first installment until 14 days after the "due" date, this in effect allows
      28 calendar days (from the date the employer first obtains knowledge of the
      injury) in which to pay the first installment. Compensation is paid when it reaches
      the claimant. If payment is not made within 28 days, 10 percent additional
      compensation must be paid.




                                                                        Defense Base Act Claims
                                             15                      Report No. 03-11-001-04-430
                                            U.S. Department of Labor – Office of Inspector General


       Final Payment – 20 CFR, Part 702.236, provides that the DLHWC District
       Director shall asses a civil penalty in the amount of $110 to any employer failing
       to provide the final payment notification.

OWCP management told us that the longstanding practice among District Offices had
been to educate employers of the required timeframes, sending warning letters to
repeated late filers (employers) and waiving penalties unless it identified an established
pattern of knowing and willful failure to comply. OWCP stated that in October 2009, it
adopted a strategy to improve timeliness of first reports of injury and first payments.
OWCP stated that the DLHWC began to enforce penalties for late filings in a more
systematic and aggressive manner. OWCP explained that it must still show that the late
filing or failure to file was knowing and willful. For example, OWCP stated it cannot
assess a penalty against a foreign DBA subcontractor with no prior experience with
Federal contracting for its failure to file injury reports. If the employer still refuses to
comply after OWCP sends repeated requests and explanations, it could establish the
“knowing and willful” requirement. OWCP said it has recently increased penalties both
for late reports of injury and for failure to provide documents when requested.
Additionally, OWCP explained that it added the capability to track penalties in the
Longshore Case Management System (LCMS) in early 2010. OWCP stated that
insurers said the timeliness of injury reporting has greatly improved in this fiscal year
due largely to OWCP’s enforcement strategies.

We concluded that OWCP needs effective monitoring controls at the management level
to ensure reports and compensation payments are timely. OWCP does track case
workload, case inventories, status of disputes, and informal conferences; and it recently
implemented an initiative to track report of injury and initial payments. However, OWCP
monitoring controls did not include identifying and tracking case files in which reports
and payments were not timely so that OWCP and District Office management could
monitor to ensure appropriate corrective action was taken. Increased monitoring by
management at the case-file level can assist management and claims examiners to
carry out their duties and responsibilities and proactively manage DBA claims.

OWCP did not agree that it lacked effective controls to ensure reports and
compensation payments were timely. OWCP stated that the District Office claims
examiners use automated call-ups in LCMS to track claim status. After a new case is
created, the staff reviews the case for disability and medical status. If no medical or
payment reports are in the file, the staff submits a 60-day call-up for this information. If
lost time by the employee is expected based on the LS-202 and other documents, the
staff may elect to issue a form letter (LS-216) to request the necessary documents
immediately. Staff tracks the progress of the case until no further disability is expected
and then they close the case. OWCP explained that at the case level, District Office
staffs have increased penalty assessments, especially for carriers who routinely ignore
requests for missing forms, current medical reports, and other information. OWCP
believed that while timeliness of first payments remains a huge challenge in foreign
claims, most insurers now submit the LS-206/208 more promptly, allowing the District
Offices to better monitor compensation and medical status. OWCP disagreed that


                                                                        Defense Base Act Claims
                                             16                      Report No. 03-11-001-04-430
                                            U.S. Department of Labor – Office of Inspector General


controls are needed to ensure that DLHWC claims examiners send claimants a Request
for Employee’s Reply to Employer’s Objections, (LS-209) when the claims examiners
receive a formal Notice of Controversion (LS-207) from an employer or insurer. OWCP
stated that, except for the New York District Office, almost all District Offices are set up
to handle this by which clerical staff send the form to the claimant with the cover letter
(LS-209) automatically and immediately on receipt of the Notice of Controversion
(LS-207).

OWCP agreed that enhanced claims management capabilities in the LCMS would
improve District Office effectiveness. However, it is concerned that automated case
management tools such as diaries and system-generated form letters will create clerical
backlogs for its limited District Office staff, so that instead of time being spent on dispute
resolution and claim adjudication services, the claims staff will be required to spend time
managing an added system-generated workload.

We believe additional management reports from OWCP’s LCMS are needed to improve
the effectiveness of DBA case management. OWCP did not have management reports
from the LCMS that identified DBA cases that had late reports and payments. DLHWC
District Office management would benefit from such management reports to monitor the
claim examiner’s progress in working with employers and insurers to ensure required
information is obtained and payments are made timely. Identifying and taking corrective
actions on specific cases that are significantly late in complying with reporting and
payment requirements can assist OWCP in achieving its goal to improve the timeliness
in filing first reports of injury and reducing the elapsed time from the fist date of injury.
We attributed OWCP’s minimal use of penalty assessments to employers and insurers
for their noncompliance with reporting and payment requirements to a lack of
centralized guidance for assessing penalties. The uniform use of penalties could be an
incentive for employers and insurers to comply with DBA claims requirements.

Without more effective case management, OWCP cannot ensure that workers, many of
them U.S. citizens, injured while employed in dangerous war zones and supporting the
U.S. military efforts overseas, receive proper and timely workers’ compensation benefits
under the DBA.


RECOMMENDATIONS

We recommend the Acting Director of OWCP:

   1. Seek legislative changes to the DBA reporting and payment requirement to
      reflect DBA claims processing in the current environment with the increased use
      of contractors and foreign nationals in the war conditions.

   2. Identify LCMS data fields that could be used to generate reports that would assist
      management and claims examiners in identifying the problems found by this
      audit, and require that they be used and verified for accuracy.


                                                                        Defense Base Act Claims
                                             17                      Report No. 03-11-001-04-430
                                         U.S. Department of Labor – Office of Inspector General




   3. Establish a quality control process by improving the management reporting
      capabilities in LCMS that would lead to enhanced DBA program oversight so
      management can monitor DBA case activity and identify problems and take
      appropriate corrective action.

   4. Notify the insurance industry of OWCP’s expectations for the submission of the
      LS-206, especially in claims involving a previously submitted Notice of
      Controversion.

   5. Standardize within each District Office the use of penalty assessments when
      dealing with noncompliant employers and insurers.


We appreciate the cooperation and courtesies that OWCP personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                                     Defense Base Act Claims
                                          18                      Report No. 03-11-001-04-430
             U.S. Department of Labor – Office of Inspector General




Exhibits 





                                         Defense Base Act Claims
              19                      Report No. 03-11-001-04-430
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                         Defense Base Act Claims
              20                      Report No. 03-11-001-04-430
                                                    U.S. Department of Labor – Office of Inspector General


                                                                                              Exhibit 1
     Statistical Results and Projections for Reports, Payments, and Penalties

                                    Number of                         95 Percent Confidence Limit Projected to
                                  Occurrences                             a Universe of 11,247 DBA Cases
                                  from Sample                                   Number                Number
                                     of 172      Point     Standard   Lower        of        Upper       of
Condition                          DBA Cases    Estimate     Error     Limit     Cases       Limit     Cases

Employer did not report
claimant injuries in a timely
manner (LS-202).                          117    68.10%      3.40%    61.44%       6,910    74.76%      8,408

OWCP did not assess a
penalty for late reporting of
injury.                                   116    67.55%      3.33%    61.02%       6,863    74.08%      8,332

Insurer did not provide initial
compensation payment in a
timely manner (LS-206).                    36    21.06%      2.87%    15.44%       1,737    26.68%      3,001
Insurer did not report notice
of final payment or
suspension of payment in a
timely manner LS-208).                     21    12.26%      2.45%     7.46%         839    17.06%      1,919
OWCP did not notify
claimant in a timely manner
that their claim was
controverted (LS-209).                     58    33.86%      3.49%    27.02%       3,039    40.70%      4,578
Employer or insurer did not
respond in a timely manner
to OWCP request for
information (LS-216).                      45    26.09%      3.31%     19.6%       2,204    32.58%      3,664
OWCP did not assess a
penalty for late, or no
response, to request for
information.                               42    24.31%      3.25%    17.49%       1,967    30.68%      3,451




                                                                                Defense Base Act Claims
                                                     21                      Report No. 03-11-001-04-430
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






                                         Defense Base Act Claims
              22                      Report No. 03-11-001-04-430
                                                U.S. Department of Labor – Office of Inspector General


                                                                                          Exhibit 2
    Statistical Results and Projections for Days Late

                                Number of                         95 Percent Confidence Limit Projected to
                              Occurrences                             a Universe of 11,247 DBA Cases
                              from Sample                                   Number                Number
                                 of 172      Point     Standard   Lower        of        Upper       of
Condition                      DBA Cases    Estimate     Error     Limit     Cases       Limit     Cases


First Report of Injury More
Than 60 Days Late (LS-202).            43    25.22%      2.24%    20.83%       2,343    29.61%      3,330

First Compensation Payment
More Than 60 Days Late (LS-
206).                                  16     9.41%      2.07%     5.35%         602    13.47%      1,515

Report of Last Payment or
Suspension of Payment More
Than 60 Days Late (LS-208).            10     5.82%      1.63%     2.62%         295     9.01%      1,013




                                                                            Defense Base Act Claims
                                                 23                      Report No. 03-11-001-04-430
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






                                         Defense Base Act Claims
              24                      Report No. 03-11-001-04-430
               U.S. Department of Labor – Office of Inspector General




Appendices 





                                           Defense Base Act Claims
                25                      Report No. 03-11-001-04-430
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                         Defense Base Act Claims
              26                      Report No. 03-11-001-04-430
                                         U.S. Department of Labor – Office of Inspector General


                                                                                Appendix A
Background

The DBA, Title 42, U.S.C., Section 1651, et seq., requires all Federal government
contractors (employers) and subcontractors to provide workers’ compensation
insurance for their employees who work outside of the United States. Under provisions
of DBA, overseas federal military and public works contractors are subject to the same
workers’ compensation rules, insurance requirements and benefit schedules as
maritime firms covered by the Longshore Act. It is intended to be a counterpart to
domestic workers’ compensation coverage and, as such, is the sole recourse for U.S.
and foreign workers who suffer on-the-job injuries or death while engaged in work in
foreign locations under government prime contracts and subcontracts. It is important
that these injured workers, many of them U.S. citizens, employed in dangerous war
zones, receive proper and timely workers’ compensation benefits.

DBA insurance is provided by private insurers or through self-insurance. DOL reported
in its FY 2009 Performance and Accountability Report that DBA injury and death cases
in connection with the wars in Iraq and Afghanistan have rapidly increased from 347
cases opened in FY 2002 to 12,255 cases opened in FY 2009. DBA benefit payments
reported by insurers increased from $7.6 million in CY 2002 to $242 million in CY 2009.

DBA is administered by DOL, OWCP, DLHWC. DLHWC’s mission is to minimize the
impact of employment injuries and deaths on employees and their families by ensuring
that workers' compensation benefits provided under the Longshore Act and its
extensions (including DBA) are paid promptly and properly, and providing information,
technical and compliance assistance, support, and informal dispute resolution services
to workers, employers, and insurers. Specifically, DLHWC’s objectives are to ensure
that the provisions of the Longshore Act regarding benefits for injured employees are
properly applied, to promptly and impartially assist in the resolution of any disputes
which may arise, and to refer cases for a formal hearing in a timely manner when a
dispute subject to hearing cannot be informally resolved. DOL approves insurers for
participation in DBA, but has no authority over other business aspects of the program,
such as, purchasing arrangements between government contractors and insurance
companies, premium rates, or contract terms. The Federal agencies executing the
contracts are responsible for ensuring the provisions of DBA are included in their
contract terms and reimbursing their contractors for the cost of insurance premiums.

OWCP uses the LCMS to maintain and manage DBA claims. The following are the
primary reporting forms OWCP uses to manage DBA claims:

      •		 LS-202, Employer’s First Report of Injury or Occupational Illness – due to
          OWCP within 10 days from date of employer knowledge of incident.

      •		 LS-206, Payment of Compensation Without Award – notifies OWCP of the
          first compensation payment to the claimant which is due 28 days or less from
          date of employer knowledge of incident.

                                                                     Defense Base Act Claims
                                          27                      Report No. 03-11-001-04-430
                                                     U.S. Department of Labor – Office of Inspector General




          •		 LS-207, Notice of Controversion of Right to Compensation – filed by the
              employer or insurer to OWCP to dispute a claim.

          •		 LS-208, Notice of Final Payment or Suspension of Compensation Payments –
              notifies OWCP of the final payment or suspension of compensation and due
              16 days from date of last payment.

          •		 LS-209, Request for Employee’s Reply to Employer’s Objections – OWCP
              notifies the claimant within 10 days from receipt of LS-207, Notice of
              Controversion of Right to Compensation.

          •		 LS-216, Requests for Additional Reports – sent by OWCP to employers and
              insurers and response is due within 30 days.

The implementing regulations for DBA are in 20 CFR, Employee Benefits, Chapter VI,
Subchapter A - Longshoremen’s and Harbor Workers’ Compensation Act and Related
Statutes. Subpart B - Claims Procedures, Part 702 contains various requirements
related to the claims process. Federal regulations provide authority to OWCP to assess
penalties to insurers and employers for late reports, late payments 4 , lack of notification
for suspension of payments, and unreasonable delays for information requests.

DLHWC has 12 District Offices headed by District Directors and 1 Sub-District Office.
The District Director reports to the OWCP Regional Director, for the Region in which the
office is located. The role of the District Offices is to ensure that the provisions of the
Longshore Act are carried out, to monitor and mediate claims made under the Act's
provisions, and to provide outreach and educational services to program participants.




4
    For late payment of initial compensation, insurers pay the assessment to the claimant.

                                                                                 Defense Base Act Claims
                                                      28                      Report No. 03-11-001-04-430
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix B
Objective, Scope, Methodology, and Criteria

Objective

The audit objective was to answer the following question:

        To what extent does OWCP ensure that employers and insurers are adhering to
        DBA claims-processing requirements?

Scope

The audit covered OWCP’s oversight of DBA claims process as of May 2010 but did not
include OWCP’s involvement in resolving disputes and contested cases. Using a
stratified random sample, we reviewed 172 of 11,247 open cases where the claimants’
date of injury occurred between January 1, 2004, and December 31, 2009. We
conducted interviews with OWCP - DLHWC officials at its National Office in
Washington, D.C. and at the following DLHWC District Offices: Houston, Texas;
Jacksonville, Florida; New Orleans, Louisiana; and New York, New York.

We conducted this audit in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Methodology

We reviewed DBA, implementing regulations, and DLHWC’s policies and procedures to
determine the Federal requirements for DBA claims process. To gain further
understanding of DLHWC’s policies and procedures, and case management process,
we interviewed DLHWC officials at its National Office and selected District Offices.

To answer the audit objective, we extracted DBA case data from the LCMS.
Specifically, we identified 11,247 open cases (i.e. the claim was still active) where the
claimants’ date of injury occurred between January 1, 2004, and December 31, 2009,
which was the most recent data available when we started the audit field work in May
2010. We selected the start date of January 1, 2004, because it was the year when the
caseload started to significantly increase because of the wars in Iraq and Afghanistan.
There were 441 open cases that we did not include in the universe. We stratified the
universe by calendar year and created two sub-strata within each year using low and
high-risk rating categories. We ranked the risk based on an average number of days
from the date of knowledge compared to the receipt of the LS-202 by OWCP. The
average number of days was 94. We assigned "high risk" to any case received more
than 94 days from the Date of Knowledge and to any case that had insufficient


                                                                       Defense Base Act Claims
                                            29                      Report No. 03-11-001-04-430
                                           U.S. Department of Labor – Office of Inspector General


information to determine the Date of Knowledge and/or when it was received. The
following table provides the number and percentage of cases from the universe for each
year.

        Table 1: Universe of Cases and Year Opened
              Year         Number of Cases                   Percent to Total
              2004                 572                              5%
              2005                 719                              6%
              2006               1,076                             10%
              2007               1,352                             12%
              2008               2,059                             18%
              2009               5,469                             49%
        Total                   11,247                            100%

We selected random samples from each sub-stratum. From the universe of 11,247 DBA
cases, we used a single stage stratified sample design to select 172 cases. This sample
was estimated using 95 percent confidence level with a precision of plus or minus 7
percent. We projected the sample results to the universe of 11,247 cases. We
presented our results with a 95 percent confidence level as shown in the report Exhibits
1 and 2. An explanation of the audit test results and relevance of the tests to the audit's
objective is provided in the body of the audit report.

For each sampled case, we analyzed whether OWCP monitored the claims to ensure
employers and insurers complied with reporting and benefit payment requirements and
assessed penalties for identified instances of non-compliance.

In planning and performing our audit, we considered whether internal controls significant
to the audit were properly designed and placed in operation. This included reviewing
OWCP’s policies and procedures related to DBA claims. We confirmed our
understanding of these controls and procedures through interviews and documentation
review and analysis. We evaluated internal controls used by OWCP for reasonable
assurance that DBA claims were managed according to Federal requirements and
guidance. Our consideration of OWCP’s internal controls for administering DBA claims
would not necessarily disclose all matters that might be significant deficiencies.
Because of inherent limitations in internal controls, misstatements or noncompliance
may nevertheless occur and not be detected.

In planning and performing the audit, we relied on computer-generated data. OWCP
provided a data file of DBA cases in the LCMS and we compared the number of cases
to OWCP management reports to ensure the data was complete. We determined the
data to be sufficient and appropriate for the purpose of our audit, which was to establish
the population of cases where the claimants’ date of injury occurred between
January 1, 2004, and December 31, 2009.




                                                                       Defense Base Act Claims
                                            30                      Report No. 03-11-001-04-430
                                           U.S. Department of Labor – Office of Inspector General


Criteria

We used the following criteria to perform the audit:

Defense Base Act, 42 U.S.C., Sections 1651-54

Longshore and Harbor Workers’ Compensation Act, 33 U.S.C., Chapter 18, Sections
901-50

20 CFR, Employee Benefits, Chapter VI, Subchapter A – Longshoremen’s and Harbor
Workers’ Compensation Act and Related Statutes

      Part 701 – General; Administering Agency; Definition and Use of Terms; 

      September 26, 1973, unless otherwise noted. 


      Part 702 – Administration and Procedure; September 26, 1973, unless otherwise 

      noted.

DLHWC Procedures Manual




                                                                       Defense Base Act Claims
                                            31                      Report No. 03-11-001-04-430
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






                                         Defense Base Act Claims
              32                      Report No. 03-11-001-04-430
                                       U.S. Department of Labor – Office of Inspector General


                                                                              Appendix C
Acronyms and Abbreviations

CFR             Code of Federal Regulations

CY              Calendar Year

DBA             Defense Base Act of 1941

DLHWC           Division of Longshore and Harbor Workers' Compensation

DOL             U.S. Department of Labor

FY              Fiscal Year

GPRA            Government Performance and Results Act

LCMS            Longshore Case Management System

Longshore Act   Longshore and Harbor Workers’ Compensation Act

OIG             Office of Inspector General

OWCP            Office of Workers’ Compensation Program

PTSD            Post Traumatic Stress Disorder

SOL             Office of the Solicitor of Labor

U.S.C           United States Code




                                                                   Defense Base Act Claims
                                        33                      Report No. 03-11-001-04-430
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK






                                         Defense Base Act Claims
              34                      Report No. 03-11-001-04-430
                                U.S. Department of Labor – Office of Inspector General


                                                                       Appendix D
OWCP Response to Draft Report




                                                            Defense Base Act Claims
                                 35                      Report No. 03-11-001-04-430
U.S. Department of Labor – Office of Inspector General




                            Defense Base Act Claims
 36                      Report No. 03-11-001-04-430
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix E
Acknowledgements

Key contributors to this report were Michael Hill (Audit Director), Daniel Pompilii (Audit
Manager), Joseph Pomianek, Eric Rann, Lawrence Alli, Christine Allen, and Ajit Buttar.




                                                                       Defense Base Act Claims
                                            37                      Report No. 03-11-001-04-430
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:    http://www.oig.dol.gov/hotlineform.htm
Email:     hotline@oig.dol.gov

Telephone:       1-800-347-3756
                 202-693-6999

Fax:             202-693-7020

Address:         Office of Inspector General
                 U.S. Department of Labor
                 200 Constitution Avenue, N.W.
                 Room S-5506
                 Washington, D.C. 20210
